PETER K. STRIS
(213) 995-6801
(213) 261-0299 (fax)
pstris@stris.com
Admitted in New York and California

July 19, 2021
VIA U.S. MAIL AND ELECTRONIC FILING
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Unicolors, Inc. v. H&M Hennes & Mauritz, L.P., No. 20-915
Dear Mr. Harris:
I represent respondent in the above-captioned matter. Respondent hereby consents to the
filing of any amicus curiae brief at the merits stage, in support of either party or of neither party,
provided that the amicus curiae brief otherwise complies with the Rules of this Court.
We appreciate your time and assistance.
Sincerely,

Peter K. Stris
cc: E. Joshua Rosenkranz (counsel of record for petitioner)

S TRIS & M AHER LLP
19743.1

777 South Figueroa Street, Suite 3850, Los Angeles, CA 90017

www.stris.com

